U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 9, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Department of Homeland Security, et al. v. Thuraissigiam, No. 19-161

Dear Mr. Harris:
Pursuant to Supreme Court Rule 32.3, we propose to lodge with the Court non-record
materials in connection with the above-referenced case.
On October 18, 2019, the Court granted a petition for a writ of certiorari in this case. Oral
argument is scheduled for March 2, 2020. The government plans to file its opening brief today.
This case involves the question whether, as applied to respondent, the limitations on
judicial review in the statutorily-prescribed procedures for expedited removal are unconstitutional
under the Suspension Clause, U.S. Const. Art. I, ยง 9, Cl. 2. The administrative procedures that
respondent was afforded could be relevant to the Court's resolution of that question. As such, the
parties plan to file today a joint appendix that includes a record of respondent's interviews with
U.S. Customs and Border Patrol agents and asylum officers. The joint appendix also includes the
relevant order of the immigration judge. It does not, however, include a transcript of the hearing
held before the immigration judge on March 17, 2017, because that transcript was not included in
the record in the court of appeals.
Because that transcript may be relevant to the Court's resolution of the case, the United
States respectfully requests that it be lodged with the Court and circulated to Chambers.
Respondent has consented to this request.
Sincerely,

cc:

See Attached Service List

Noel J. Francisco
Solicitor General

19-016 1
DEPARTMENT OF HOMELAND SECURITY, ET AL.
VIJAUAKUMAR THURAIS SIGIAM

LEE P. GELERNT
ACLU - AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2660
LGELERNT@ACLU.ORG
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-lA
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
JOHN DAVID LOY
ACLU FOUNDATION OF SAN DIEGO AND
IMPERIAL COUNTIES
P0 BOX 87131
SAN DIEGO, CA 92138
619-232-2121
DAVIDLOY@ACLUSANDIEGO.ORG
JENNIFER C. NEWELL
AMERICAL CIVLI LIBERTIES UNION
FOUNDATION IMMIGRANTS' RIGHTS
PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-343-0781
INEWELL@ACLU.ORB

